No.
IN THE

Supreme Court of the United States
DERRICK VAUGHN,
v.

Petitioner,

UNITED STATES OF AMERICA,

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit
APPLICATION FOR LEAVE TO PROCEED

IN FORMA PAUPERIS

Petitioner DERRICK VAUGHN, by counsel, respectfully asks leave to
file the accompanying Petition for Writ of Certiorari to the United States Court
of Appeals for the Seventh Circuit without prepayment of costs and to proceed
in forma pauperis. Petitioner is indigent and proceeded in forma pauperis both
in the trial court and on appeal. Undersigned counsel of record was appointed
in the Court of Appeals under 18 U.S.C. ยง 3006A See Sup. Ct. R. 39.
Respectfully Submitted,
June 30, 2021

s/Paul D. Geiger
Paul D. Geiger

Counsel of Record

LAW O FFICES OF PAUL D. G EIGER
540 W. Frontage Road, Suite 3020
Northfield, IL 60093
(773) 410-0841
pauldgeiger@gmail.com

Counsel for Derrick Vaughn

